Supreme Court, U.S.
FILED

OFFICE OF THE CLERK

No.

In The
Supreme Court of the United States

Robert L. Vaughn, Jr. aka Judson Vaughn,
Petitioner,
v.
William 0. Bray, Teresa V. Bray,
Wachovia Bank Nka Wells Fargo,
Alabama Credit Land & Farm Lenders
Respondents.

On Petition For Writ Of Certiorari To The
Supreme Court of Alabama
PETITION FOR WRIT OF CERTIORARI

Judson Vaughn
Pro Se Counsel for Petitioner
924 Hidden Cove Drive
Ball Ground, GA 30107
404) 683-3572
JudsonVaughn@FirstImpressionsHQ.com

QUESTIONS PRESENTED
1. Can a trial court and The Supreme Court of
Alabama ignore previous Supreme Court of
Alabama decisions that protect plaintiffs in cases of
undue influence? Spiva v. Boyd, 90 So. 289 (Ala.
1921) declared: “In suits for relief on the ground of
undue influence, neither limitations nor laches can
begin to operate against the injured complainant so
long as the undue influence itself continues.”
However, in this action, Vaughn v. Bray, et al, the
trial court ignored Spiva v. Boyd and ruled for the
defendants based on the Doctrine of Latches — even
though the evidence was clear that Teresa Bray, the
sole beneficiary of the testator’s property, unduly
influenced said testator until the testator’s death.
Within a month of the testator’s death, the plaintiff
filed a suit against the defendants. The Supreme
Court of Alabama affirmed the trial court ruling.
Can a trial court and The Supreme Court of
Alabama ignore a superseding authority and decide
a case based not on the superseding authority, but
rather on the law that the authority supersedes?
Spiva v. Boyd is a superseding authority over
statutes of limitations and the Doctrine of Latches
in cases of undue influence. Spiva presents clear
guidelines that protect plaintiffs — just as statutes of
limitations protect defendants. Spiva v. Boyd is an
Alabama state law that might be deemed (by some)
as an unusual law, one perhaps that has few related
or comparable laws in other states. But it is an
important law that levels the playing field (in some
circumstances) between plaintiffs and defendants in
matters involving undue influence.
2.

ii

PARTIES TO THE PROCEEDING
The parties to the proceeding in the Supreme Court
of Alabama were Petitioner Judson Vaughn and
Respondents William 0. Bray, Teresa V. Bray,
Wachovia Bank (Nka) Wells Fargo, Alabama Credit
Land & Farm Lenders

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED...............................

l

PARTIES TO THE PROCEEDING...................

n

TABLE OF CONTENTS.....................................

in

TABLE OF AUTHORITIES...............................

IV

PETITION FOR WRIT OF CERTIORARI.......

1

OPINIONS BELOW............................................

1

JURISDICTION..................................................

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED................................

2

STATEMENT OF THE CASE............................

2

REASONS FOR GRANTING THE PETITION...... 6
CONCLUSION....................................................... 10
APPENDIX
Appendix A.............................................................. 12
The Ruling by The Circuit Court of Dale County,
Alabama
(August 15, 2018)
Appendix B.............................................................. 19
The Certificate of Judgment by the Supreme Court
of Alabama
(December 13, 2019)
Appendix C..........................................................
Appeal from the Circuit Court of Dale County,
Alabama, in The Supreme Court of Alabama
(December 17, 2018)

21

C

iv

TABLE OF AUTHORITIES
CASES
Spiva v. Boyd

90 So. 289 (Ala. 1921)

2, 4, 6, 9

Burke v. Taylor
94 Ala, 530, 532, 10 South. 129,130..2, 4, 6, 7, 8, 9
Burns v. Marshall
767 So.2d 347, 352 (Ala.2000)

5, 8

Ex Parte Henderson
732 So. 2d 295 (Ala. 1999)

5, 8

Hayes v. Apperson
826 So. 2d 798 (Ala. 2002)

5, 6, 8, 9

Waddell v. Lanier
62 Ala. [347] 349

4, 7,9

PETITION FOR A WRIT OF CERTIORARI
Robert L. Vaughn Jr. aka Judson Vaughn petitions
for a writ of certiorari to review the judgment of the
Supreme Court of Alabama.
OPINIONS BELOW
Regarding the Supreme Court of Alabama case
#1171207, Robert L. Vaughn Jr. aka Judson
Vaughn v. William 0. Bray, et al. (Appeal from Dale
County Circuit Court: CV-07-232),: In its December
13^, 2019 Certificate of Judgment, the court denied
the appellee’s application for rehearing, stating:
“Application Overruled. No Opinion.” Further the
court wrote: “...the judgment indicated below was
entered in this cause on August 9, 2019: “Affirmed.
No Opinion.”
JURISDICTION
The Supreme Court of Alabama had jurisdiction
over this appeal. This is a civil matter involving the
conveyance by deed of two real estate properties and
a historic farmhouse in Dale County, Alabama. The
current value of these properties exceeds one million
($1,000,000.00) dollars. The appellant sought
Equitable Relief. The Supreme Court of Alabama
entered judgment on December 13^, 2019. The court
denied plaintiffs petition for rehearing andaffirmed
the opinion of the trial court.

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case does not involve interpretation of
statutory or constitutional provisions.
STATEMENT OF THE CASE
This court should return this matter to the trial
court because the trial court ignored the Supreme
Court of Alabama ruling in the civil action Spiva v.
Boyd, 90 So. 289 (Ala. 1921). In that matter the
Supreme Court of Alabama declared: “In suits for
relief on the ground of undue influence, neither
limitations nor laches can begin to operate against
the injured complainant so long as the undue
influence itself continues.”
The history of one sibling unduly influencing a
parent in order to steal another sibling’s birthright
is as old as recorded history. Being aware of the
frequency that such acts occur, the state of Alabama
has established numerous laws to protect siblings
and other descendants from the greed that all too
often is displayed within families. Spiva v. Boyd is
one such law. In this matter, Vaughn v. Bray, had
the plaintiff, Judson Vaughn, filed suit against his
sister and her husband when he learned that Mr.
and Ms. Bray had coerced his mother, Verna
Mathison Vaughn, into signing documents deeding
her farm to Ms. Bray — rather than dividing the land
equally between her two children as her will clearly
stated — Judson Vaughn would have thrust his
mother into one of two emotionally distressing
situations. He could have — as was recommended by

3

counsel — had his mother declared mentally
incompetent since she outwardly exhibited
symptoms of dementia and was in the early stages
of Alzheimer’s disease.
Thus, a court would have likely ruled that the
deeds she signed were invalid. At a trial to
determine the validity of the deeds, Ms. Vaughn
would not be required (or permitted) to testify.
However, at the time Mr. and Ms. Bray coerced Ms.
Vaughn into signing the deeds, during most of her
waking hours, Ms. Vaughn was quite lucid.
Mr. Vaughn was schooled and began his
professional career as a sociological and
psychological researcher, specifically his initial
profession was as a social scientist doing
gerontological research, thus he was well aware that
requiring or forcing his mother to go through a
psychological evaluation to have her declared
mentally incompetent would have been emotionally
devastating for his mother.
Additionally, Ms. Vaughn was extremely well
known in the small town of Ozark, Alabama. Mr.
Vaughn knew that a trial in which he accused his
sister of coercing his mother into signing deeds she
did not want to sign, would be a widely attended trial
with a packed courtroom every day, which would
have been an extremely embarrassing spectacle for
his mother.
Additionally still, at the time Ms. Vaughn was
coerced into signing the deeds, Ms. Bray was Ms.
Vaughn’s primary caregiver and had sole power of

4
attorney over their mother. Knowing that Ms. Bray
had a frightening temper when things did not go her
way, Mr. Vaughn was afraid that should he sue Ms.
Bray while Ms. Vaughn as still alive, Ms. Bray
would retaliate against her mother in emotionally
abusive ways.
But Spiva v. Boyd is not the only Supreme Court
of Alabama decision that protects one sibling from
the greed of another. There is Waddell v. Lanier, 62
Ala. [347] 349. In order to find for the defendants,
the trial court also had to ignore Waddell, which
states: “It is certain that agents are not permitted to
become secret vendors or purchasers of property
which they are authorized to buy or sell for their
principals: or, by abusing their confidence.”
Possessing sole Power of Attorney made Ms. Bray,
Ms. Vaughn’s agent and fiduciary, thus she had a
duty to execute Ms. Vaughn’s desires as stated in her
will; she did not.
In ignoring Waddell, the trial court also ignored*
Burke v. Taylor, 94 Ala, 530, 532,10 South. 129,130,
which in agreement with Waddell, states: “In all
such cases, the burden rests on the party claiming
under the deed, to prove satisfactorily that it is just,
fair and equitable in every respect, and not the party
seeking to avoid it to establish that it is fraudulent.”
Therefore, regarding the warranty deeds in
question, the burden of proof that the procurement
and executions of said deeds were not tainted, falls
on the defendants Mr. and Ms. Bray.

5
Burke v. Taylor turns the notion of “innocent
until proven guilty” on its head. As “the party
claiming under the deed,” Ms. Bray did not present
evidence before the Circuit Court of Dale County,
Alabama, “to prove satisfactorily that it is just, fair
and equitable in every respect.”
And finally, Alabama has established a firm test
of undue influence as articulated in Elizabeth Hayes
et al. v. Gordon W. Apperson, 1001605. Decided:
February 08, 2002. Based on precedent, Hayes
reaffirms that that there is a three-pronged test to
determine undue influence: “A presumption of
undue influence arises when: (1) there is a
confidential relationship between a favored
beneficiary and the testator, (2) the influence of the
beneficiary is dominant and controlling in that
relationship, and (3) there is undue activity by the
beneficiary in procuring the execution of the will.
Burns v. Marshall, 767 So.2d 347, 352 (Ala.2000); Ex
parte Henderson, 732 So.2d 295, 298 (Ala.1999).”
In written and oral arguments before the Circuit
Court of Dale County, Alabama the plaintiff proved
beyond a shadow of doubt, that (1) Ms. Bray, (as the
beneficiary) was Ms. Vaughn’s daughter and
primary care-giver and thus had a confidential
relationship with the testator. (2) The evidence
within the notes of the administrator of the
retirement home in which Ms. Vaughn lived, clearly
illustrate that Ms. Bray was “dominant and
controlling in that relationship.” In fact, the
retirement home administrator reported Ms. Bray to
the Alabama Department of Human Services,

6

because she witnesses Ms. Bray emotionally abusing
Ms. Vaughn. And (3) Ms. Bray designed and
controlled every aspect of procuring the execution of
the deeds she coerced Ms. Vaughn into signing.
In order to find for the defendants, the trial court
had to ignore Spiva v. Boyd, Burke v. Taylor, and
Hayes v. Apperson.
REASONS FOR GRANTING THE PETITION
In order to deny the appellant’s request for a
rehearing and to affirm the judgment of the trial
court, the Supreme Court of Alabama had to ignore
Spiva v. Boyd, 90 So. 289 (Ala. 1921).
Spiva v. Boyd: “In suits for relief on the ground of
undue influence, neither limitations nor laches can
begin to operate against the injured complainant so
long as the undue influence itself continues.”
CV-07-232 was a lawsuit filed by the plaintiff,
Judson Vaughn, in which the evidence was clear
that William O. Bray and Teresa Bray, unduly
influenced Verna Mathison Vaughn into signing
documents deeding her farm to Ms. Bray.
The facts in this case clearly illustrate that Ms.
Bray’s undue influence over Ms. Vaughn continued
until Ms. Vaughn’s death. Thus, Spiva v. Boyd is
clearly the superseding authority over Alabama’s
statutes and laws that relate to limitations and
latches in cases of undue influence. The Supreme
Court of Alabama ignored Spiva v. Boyd when it
affirmed the ruling of the Circuit Court, and by

7

doing so, completely neutered a Supreme Court
decision that had governed undue influence cases for
over ninety (90) years.
In order to deny the appellant’s request for a
rehearing and to affirm the judgment of the trial
court, the Supreme Court of Alabama had to ignore
Waddell v. Lanier, 62 Ala. [347] 349: “It is certain
that agents are not permitted to become secret
vendors or purchasers of property which they are
authorized to buy or sell for their principals: or, by
abusing their confidence.”
Possessing sole Power of Attorney made Ms.
Bray, Ms. Vaughn’s agent and fiduciary, thus she
had a duty to execute Ms. Vaughn’s desires as stated
in her will and thus Ms. Bray should not have been
allowed by become a purchaser of Ms. Vaughn’s
property or to abuse her confidence, which the
evidence makes clear that she did.
In order to deny the appellant’s request for a
rehearing and to affirm the judgment of the trial
court, the Supreme Court of Alabama had to ignore
Burke v. Taylor, 94 Ala, 530, 532,10 South. 129,130,
which in agreement with Waddell, states:
“In all such cases, the burden rests on the party
claiming under the deed, to prove satisfactorily that
it is just, fair and equitable in every respect, and not
the party seeking to avoid it to establish that it is
fraudulent.”
Burke v. Taylor is not just an unusual law, it may
be radically unusual in the eyes of some, since it

8

turns the notion of “innocent until proven guilty” on
its head. However, when it comes to undue
influence, it is an extremely important law because
— as in this case — one sibling took advantage of a
mentally weak parent in order to steal what that
parent had promised (in her will) to the other sibling.
By ignoring Burke, the Supreme Court of Alabama
is limiting the rights of plaintiffs to correct wrongs
done to them as a result of undue influence.
And finally, in order to deny the appellant’s
request for a rehearing and to affirm the judgment
of the trial court, the Supreme Court of Alabama had
to ignore Elizabeth Hayes et al. v. Gordon W.
Apperson, 1001605. Decided: February 08, 2002.
Based on precedent, Hayes reaffirms that that
there is a three-pronged test to determine undue
influence: “A presumption of undue influence arises
when: (1) there is a confidential relationship
between a favored beneficiary and the testator, (2)
the influence of the beneficiary is dominant and
controlling in that relationship, and (3) there is
undue activity by the beneficiary in procuring the
execution of the will. Burns v. Marshall, 767 So. 2d
347, 352 (Ala.2000); Ex parte Henderson, 732 So.2d
295, 298 (Ala. 1999).”
Hayes presents a clear-cut three-pronged test to
determine undue influence which will add the
thousands of cases of undue influence that the state
of Alabama will see in future years. And most
importantly, Hayes offers protections not just to
plaintiffs in matters of undue influence, but also to

9
defendants who are accused of unduly influencing
others for his or her benefit.
By affirming the trial court’s judgment, the
Supreme Court of Alabama also rendered the three­
pronged test to determine undue influence detailed
in Hayes v. Apperson, moot.
Instances of emotional and financial abuse of
parents by their children in the state of Alabama
and throughout the nation, are so common that they
are no longer shocking.
With its decisions in Spiva v. Boyd, Burke v.
Taylor, Hayes v. Apperson, and Waddell v. Lanier,
the Supreme Court of Alabama carved a clear path
for plaintiff siblings to recover monies or properties
that were denied them because a person unduly
influenced a testator in order to gain monies or
properties for himself or herself, that the testator
clearly intended the plaintiff siblings (or others) to
receive.
With its decision in the matter of Vaughn v. Bray
(1171207), the Supreme Court of Alabama
obliterated the protections within Spiva v. Boyd,
Burke v. Taylor, Hayes v. Apperson, and Waddell v.
Lanier for siblings who have been financially harmed
by their siblings or other bad actors. By obliterating
those protections for rightful beneficiaries, with the
decision in Vaughn v. Bray, the Supreme Court of
Alabama is carving a clear path for those who
unduly influence and/or financially abuse the elderly
or infirm for their own

10
gain, to get away with such unjust acts. A ruling or
decision such as this one, that removes reasonable
protections against harm for any and all citizens,
should not be allowed to stand.
CONCLUSION
For the forgoing reasons, this court should grant
the petition for Certiorari.
Respectfully submitted,

X
Judson Vaughn, aka Robert L. Vaughn, Jr.
924 Hidden Cove Drive
Ball Ground, GA 30107
JudsonVaughn@FirstImpressionsHQ.com
Pro se Counsel for the Petitioner
May 22, 2020

